App. 1
United States Court of Appeals
for the Eighth Circuit
-----------------------------------------------------------------------

No. 18-1402
-----------------------------------------------------------------------

Wadith Stockinger Nader; Stacey Nichole Nader
Plaintiffs - Appellants
v.
City of Papillion; Sarpy County, Nebraska;
Bryan Svajgl; Benjamin Iversen; Scott A. Lyons
L. Kenneth Polikov; Jennifer Miralles
Defendants - Appellees
---------------------------------------------------

Appeal from United States District Court
for the District of Nebraska – Omaha
---------------------------------------------------

Submitted: December 11, 2018
Filed: March 8, 2019
---------------------------------------------------

Before LOKEN, MELLOY, and ERICKSON, Circuit
Judges.
---------------------------------------------------

App. 2
MELLOY, Circuit Judge.
Plaintiff Wadith Nader appeals the district court’s1
grant of summary judgment against his 42 U.S.C.
§ 1983 claim for unlawful arrest in violation of the
Fourth Amendment. Having jurisdiction under 28
U.S.C. § 1291, we affirm.
I.

Background

In December 2014, the National Center for Missing and Exploited Children (“NCMEC”) received two
tips from Microsoft regarding seven images of child
pornography that had been uploaded to Microsoft’s SkyDrive. The images had been uploaded by a Microsoft customer with the email address wadith@hotmail.com.
NCMEC forwarded the tips to the Nebraska State Patrol, which in turn forwarded the tips to the Papillion,
Nebraska Police Department for further investigation.
The matter was assigned to Detective Bryan Svajgl.
Svajgl determined that the images likely constituted
child pornography. He also determined that the email
account from which they had been uploaded belonged
to Wadith Nader, who lived in Papillion, Sarpy County,
Nebraska. Svajgl then obtained a warrant to search
Nader’s residence for evidence of suspected child pornography violations, including possession of child
pornography under Neb. Rev. Stat. § 28-813.01. Nader
does not contest the validity of the search warrant.

1

The Honorable Joseph F. Bataillon, United States District
Judge for the District of Nebraska.

App. 3
Svajgl conducted the search along with a team of
detectives on March 17, 2015. The team included Detective Benjamin Iversen, an officer skilled in analyzing and reviewing computer files. While in Nader’s
home, Iversen used a special computer program to scan
computers and other hardware owned by Nader for
child pornography. A scan of one of Nader’s computers
revealed a large volume of pornographic images. It also
returned twenty-three keyword hits, which are words
that are defined as related to child pornography, and
one hash value of interest, which indicated the potential presence of an image of child pornography on the
computer.2 At Nader’s home, Iversen was unable to review the image associated with the hash value of interest to determine whether it actually contained child
pornography. He did, however, report the results to
Svajgl. Svajgl then spoke with Nader. Nader confirmed
that he had searched for adult pornography but denied
searching for any child pornography. He also confirmed
that he had uploaded files to the Microsoft SkyDrive
and mentioned that he might have accidentally uploaded child pornography. The detectives seized the
computer and several cell phones for later review.
Based on Nader’s confirmation that he had uploaded some images to the Microsoft SkyDrive and the
fact that seven images of child pornography had been
2

A hash value is essentially a digital finger print. Microsoft
and other technology companies maintain a database of hash values associated with child pornography. Thus, a hash value of interest indicates the potential presence of an image of child
pornography.

App. 4
uploaded to the Microsoft SkyDrive from Nader’s
email, Svajgl believed he had probable cause to arrest
Nader. Before arresting Nader, he called Sarpy County
Deputy Attorney Jennifer Miralles (now Jennifer Hessig)
to confirm that he had probable cause. Hessig was “on
call” that day to answer questions from law enforcement officers that arose during the ordinary course of
business. She agreed that Svajgl had probable cause to
arrest Nader. Svajgl then arrested Nader and served
him with a Uniform Citation and Complaint for possession of child pornography. Following the arrest, Svajgl
filed an Affidavit in Support of a Warrantless Arrest
with the County Court of Sarpy County. On March 18,
2015, the reviewing judge signed a Probable Cause Detention Order authorizing the detention of Nader. Ultimately, none of the seven child-pornography images
flagged by Microsoft were discovered among the devices seized from Nader’s house. Several other images
of child pornography were eventually found on one of
Nader’s devices, but he was not prosecuted for possessing those images because prosecutors questioned
whether they could prove that Nader “knowingly possessed” them.
In May 2015, Nader filed a lawsuit asserting various federal and state law claims against Svajgl,
Iversen, Hessig, Scott Lyons, (the Chief of Police of the
Papillion Police Department), L. Kenneth Polikov (the
Sarpy County Attorney), the City of Papillion, and
Sarpy County. All of the individual Defendants were
sued in their individual capacities. The district court
granted Defendants’ motions for summary judgment

App. 5
on all claims. Nader appeals only the district court’s
grant of summary judgment on his 42 U.S.C. § 1983
claim for unlawful arrest in violation of the Fourth
Amendment. On that claim, the district court found:
(1) Svajgl and Iversen were entitled to qualified immunity; (2) Hessig was entitled to either absolute immunity or qualified immunity; (3) Lyons and Polikov
were entitled to qualified immunity; and (4) Sarpy
County and the City of Papillion could not be subject
to municipal liability.
II.

Standard of Review

We review the district court’s grant of summary
judgment based on qualified immunity de novo, “viewing the evidence in the light most favorable to [Nader]
and drawing all reasonable inferences in [his] favor.”
Malone v. Hinman, 847 F.3d 949, 952 (8th Cir. 2017)
(second alteration in original) (citation omitted). Summary judgment is appropriate if “there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(a). “An official is entitled to qualified immunity unless (1) the evidence, viewed in the light most favorable
to the plaintiff, establishes a violation of a constitutional or statutory right, and (2) the right was clearly
established at the time of the violation.” Malone, 847
F.3d at 952.

App. 6
III.

Discussion

“A warrantless arrest is consistent with the
Fourth Amendment if it is supported by probable
cause, and an officer is entitled to qualified immunity
if there is at least ‘arguable probable cause.’ ” Borgman
v. Kedley, 646 F.3d 518, 522-23 (8th Cir. 2011) (quoting
Walker v. City of Pine Bluff, 414 F.3d 989, 992 (8th Cir.
2005)). A detective has probable cause to arrest “when
the totality of the circumstances at the time of the
arrest ‘are sufficient to lead a reasonable person to believe that the defendant has committed or is committing an offense.’ ” Id. at 523 (quoting Fisher v. Wal–
Mart Stores, Inc., 619 F.3d 811, 816 (8th Cir. 2010)).
“Arguable probable cause exists even whe[n] an officer
mistakenly arrests a suspect believing [the arrest] is
based in probable cause if the mistake is objectively
reasonable.” Hosea v. City of St. Paul, 867 F.3d 949, 955
(8th Cir. 2017) (alteration in original) (quoting Ehlers
v. City of Rapid City, 846 F.3d 1002, 1009 (8th Cir.
2017)). Whether probable cause exists is a question of
law to be “determined at the moment the arrest is
made, and ‘any later developed facts are irrelevant to
the . . . analysis.’ ” Id. (quoting Gilmore v. City of Minneapolis, 837 F.3d 827, 833 (8th Cir. 2016)). A detective
“need not conduct a ‘mini-trial’ before effectuating an
arrest” and “when assessing whether a suspect possessed the state of mind required for the crime . . . he
need not rely on an explanation given by the suspect.”
Borgman, 646 F.3d at 523-24 (citations omitted). However, a detective “cannot avoid ‘minimal further investigation’ if it would have exonerated the suspect.” Id.

App. 7
at 523 (quoting Kuehl v. Burtis, 173 F.3d 646, 650 (8th
Cir. 1999)).
Svajgl had probable cause to arrest Nader. The totality of the circumstances at the time of the arrest, as
described above, were sufficient for Svajgl to believe
that Nader had committed or was committing the offense of possessing child pornography. Nader argues
that minimal further investigation of the hash value of
interest would have revealed that the image it was associated with was not child pornography. But, even assuming Svajgl had discovered that fact, probable cause
would have still existed. Seven images of child pornography had been uploaded from Nader’s email to Microsoft’s SkyDrive, Nader himself acknowledged that
he may have uploaded child pornography accidentally
(an excuse Svajgl was not required to believe), and the
twenty-three keyword hits still indicated the potential
presence of child pornography on Nader’s computer. In
sum, Svajgl and Iversen, to the extent Iversen was
even involved, are entitled to qualified immunity because their arrest of Nader did not violate the Fourth
Amendment. For that same reason, the remaining individual defendants are also entitled to qualified immunity.
Further, Sarpy County and the City of Papillion
cannot be subject to municipal liability. “To establish
municipal liability under § 1983, a plaintiff must show
that a constitutional violation was committed pursuant to an official custom, policy, or practice of the
governmental entity.” Moyle v. Anderson, 571 F.3d 814,
817 (8th Cir. 2009). As we held in Webb v. City of

App. 8
Maplewood, however, “‘there must be an unconstitutional act by a municipal employee’ before a municipality can be held liable.” 889 F.3d 483, 487 (8th Cir. 2018)
(citation omitted). Thus, because we find that no municipal employee committed an unconstitutional act,
municipal liability cannot attach to Sarpy County and
the City of Papillion.
IV.

Conclusion

For the foregoing reasons, we affirm the judgment
of the district court.

App. 9
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
WADITH STOCKINGER NADER,
and STACEY NICHOLE NADER,
Plaintiffs,
v.
THE CITY OF PAPILLION,
SARPY COUNTY, BRYAN
SVAJGL, BENJAMIN
IVERSEN, SCOTT A. LYONS,
L. KENNETH POLIKOV, and
JENNIFER MIRALLES,

8:17CV83
MEMORANDUM
AND ORDER

Defendants.
This matter is before the court on motions for summary judgment filed by defendants City of Papillion,
Nebraska (“Papillion”), Bryan Svajgl, Scott Lyons, and
Benjamin Iversen, Filing No. 49 (collectively referred
to as the “Papillion Defendants”), and by defendants
County of Sarpy (“Sarpy County”), L. Kenneth Polikov,
and Jennifer Miralles (collectively “the Sarpy County
Defendants”), Filing No. 39. This is an action for deprivation of rights under 42 U.S.C. § 1983. This court has
jurisdiction under 28 U.S.C. § 1331.
Plaintiffs Wadith Nader (“Mr. Nader” of “Nader”)
and his wife, Stacey Nader (“Mrs. Nader”) (collectively
“Plaintiffs”) are citizens of New Jersey, but reside in
Papillion, Nebraska. Papillion and Sarpy County are
political subdivisions of the State of Nebraska. Polikov
is the Sarpy County Attorney. Miralles is a former

App. 10
Deputy Sarpy County Attorney. Chief Lyons is the
Chief of Police of the Papillion Police Department. Detective Benjamin Iversen is an employee of the Police
Department of La Vista, Nebraska, but was working as
an agent of the Papillion Police Department at the time
of the incident at issue. Detective Svajgl is a Papillion
Police Department officer who was the lead detective.
All of the individual Defendants are sued in their individual capacities.
The Naders allege a violation of their civil rights
under 42 U.S.C. § 1983 in connection with Mr. Nader’s
arrest and subsequent 28-day detention. Mr. Nader
contends he was subjected to an unlawful arrest and
seizure in violation of the Fourth Amendment. He alleges that he was arrested in his home, after execution
of a valid search warrant, and detained without probable cause. Further, he alleges that defendants Svajgl,
Iversen, Lyons and Miralles conspired to deprive him
of his constitutional rights. He also asserts a state-law
claim for malicious prosecution. He alleges that Chief
Lyons failed to properly train the investigators and alleges the defendants acted pursuant to customs and
policies of Papillion and Sarpy County. Mrs. Nader asserts she was harmed by the defendants’ allegedly unlawful conduct in that she had to abandon her military
career.
Sarpy County moves for summary judgment on
the plaintiffs’ § 1983 claims on the basis of qualified
immunity and asserts it is immune from suit for the
plaintiffs state law claim under the Nebraska Political
Subdivisions Tort Claims Act, (“PSTCA”), Neb. Rev.

App. 11
Stat. §13-910(7).1 Defendants Polikov and Miralles
contend they are entitled to a judgment of dismissal
on the ground of prosecutorial immunity. The Sarpy
County defendants also assert that Mrs. Nader lacks
standing to assert her claims.
Defendants Svajgl, Iversen, and Lyons move for
summary judgment based on the defense of qualified
immunity and, alternatively, on the merits. Papillion
asserts that, in light of the qualified immunity of the
individual defendants, it has no independent liability.
It also asserts immunity under the NPSTCA on the
plaintiffs’ state law claims and argues Mrs. Nader
lacks standing.
I.

FACTS

The following facts are gleaned from the respective statements of facts in the parties’ briefing and
from the evidence submitted in connection with the
motions. See Filing No. 40, Sarpy County Brief; Filing
No. 45, Plaintiff ’s Brief; Filing No. 47, Affidavit of
Zachary Lutz-Priefert (“Lutz-Priefert Aff.”); Filing No.
48, Sarpy County Reply Brief; Filing No. 50, Papillion
Brief; Filing No. 52, Plaintiffs Brief; Filing No. 55,
Papillion Reply Brief; Filing Nos. 40-1 to 40-19, evidence attached to Sarpy County Brief; Filing Nos. 46,

1

The Political Subdivisions Tort Claims Act sets forth general waiver of immunity subject to certain limited exceptions.
Neb. Rev. St. §§ 13-908, 13-910.

App. 12
51 and 53, Indices of Evid.; and Filing No. 54, Affidavit
of Wadith S. Nader.
In December, 2014, the National Center for Missing and Exploited Children (“NCMEC”) sent a cybertip
to the Nebraska State Patrol that suspected child pornography had been uploaded to the Microsoft’s Skydrive. The Nebraska State Patrol passed the tip on to
the Papillion Police Department. Filing No. 47, LutzPriefert Aff., Ex. B, Deposition of Bryan Svajgl (“Svajgl
Dep.”). Detective Svajgl then conducted an investigation and later obtained a warrant to search the Naders’
home. Filing No. 40-12, Affidavit of Bryan Svajgl
(“Svajgl Aff.”) at 2-5. The Sarpy County Court issued
the warrant based on Detective Svajgl’s affidavit of
probable cause for a search warrant to locate evidence
of suspected child-pornography violations under Neb.
Rev. Stat. § 28-813.01 (possession of child pornography) and Neb. Rev. Stat. § 28-813.03 (distribution of
child pornography). Id. at 5; Filing No. 40-13, Affidavit
in support of application; Filing No. 40-14, Search Warrant. The search warrant authorized the seizure of certain identified electronic devices that were the subject
of the suspected criminal activity described above as
revealed by Detective Svajgl’s investigation. Filing No.
40-12, Affidavit of Bryan Svajgl (“Svajgl Aff.”) at 7; Filing No. 40-14, Ex. B, Search Warrant. The Naders do
not challenge the legality of the search warrant.
Detective Svajgl assembled a team of detectives
from Papillion and La Vista to perform the search of
the Nader home. Filing No. 47, Lutz-Priefert Aff., Ex.
B, Svajgl Dep. at 45, 53. Svajgl sought and obtained the

App. 13
assistance of Detective Benjamin Iversen, under an
intra-local agreement between local police departments.
Id. at 53; id., Ex A, Deposition of Benjamin Iversen
(“Iversen Dep.”) at 47-54. Detective Svajgl testified
that Iversen was utilized because of his skills with regard to analyzing and previewing computers. Filing
No. 47, Lutz-Priefert Aff., Ex. B, Svajgl Dep. at 46.
On Tuesday, March 17, 2015, at approximately
11:05 a.m., Detective Svajgl and several other police
officers from the Papillion and La Vista Police Departments served the search warrant at the Nader residence on Wadith Nader when he answered the door
and officers were able to confirm his identity. Filing No.
40-18, Affidavit of Vincent Valentino (“Valentino Aff.”),
Ex. B, Deposition of Wadith Nader (“Nader Dep.”) at
61-63; Filing No. 40-12, Svajgl Aff. at 7. The search of
the Nader home was the first time Svajgl had conducted a search in connection with possession of child
pornography and the first search he conducted as lead
detective. Filing No. 47, Svajgl Dep. at 34-37.
During the execution of the search warrant, Deputy Iversen began his evaluation of the computers
and other hardware owned by Mr. Nader. Id. Deputy
Iversen testified he visually scanned file names and
noted file folders with names associated with pornography. Filing No. 47, Lutz-Priefert Aff., Ex. A, Iversen
Dep. at 106-10. He used software known as OS-Triage
to run scans of one of the HP Envy computers found in
the residence, and 23 keyword hits and one hash value

App. 14
of interest.2 Id. at 111-15. Iversen verified that a very
large volume of pornographic image files were contained therein, and he flagged one image as possible
known child pornography. Id. Iversen testified the
image was located using OS-Triage, which is a tool
Iversen was using for the first time during the course
of an investigation, Id. at 66. He identified the image
by its hash value but he was unable to see the image.
Id. at 48, 111-12. Iversen testified that a hit on a hashtag tells the officer that there is suspected child pornography on the computer, it does not show that a
crime has been committed. Id. at 64-65, 76-77; 114. In
order to determine if a hash value of an image is actually child pornography, it is necessary to review the image itself and Iversen did not do so at the Nader home.
Id.
Iversen was the only individual involved in the
analysis of technology at the Nader home. Id. at 82.
Detective Iversen left the residence before Mr. Nader
was removed from the premises. Id. at 128. Detective
Iversen testified that no one asked his advice as to
whether or not he believed there was probable cause to
arrest Mr. Nader. Id. at 133-34. Svajgl stated that he
2

Iversen testified that a hash value is “a 32- to a 44-alphadigit alphanumeric number that is used as a digital fingerprint or
digital signature for a file.” Filing No. 47, Ex. A, Iversen Dep. at
10-11. He testified that it was his understanding that Microsoft
and other technology companies “have a database of the hash values [that are known to be child pornography] and they’re running
their computers against the hash values that are loaded into their
drives. And that’s how they identify images that have been tagged
as child pornography.” Id.

App. 15
had no working knowledge of OS-Triage. Filing No. 47,
Lutz-Priefert Aff., Ex. B, Svajgl Dep. at 50.
Detective Svajgl testified that Iversen informed
him of the results of his analysis and told him that he
found a hashtag of interest and 23 keyword matches.
Id. at 65-66. Detective Svajgl also stated that while executing the warrant, he spoke to Nader. Id. at 76. He
testified Nader told him that Nader had not searched
for child pornography, but acknowledged that he had
adult pornography. Id. at 99. Nader also told Detective
Svajgl that he had uploaded files of the Skydrive and
might have accidentally uploaded child pornography.
Id. at 99; Filing No. 40-12, Svajgl Aff. at 9-10. During
the course of interviewing Nader, Svajgl learned that
Nader’s email account, which allegedly had child pornography uploaded from it, had previously been
hacked. Filing No. 47, Ex. B, Svajgl Dep. at 96; Filing
No. 40-12, Svajgl Aff. at 9. Nader testified that he and
his wife were gun collectors and 35 to 40 guns were
found in his house. Id. He also testified that five-gallon
buckets of nitric oxide were found in his yard. Id.
Svajgl testified that the arrest of Nader was
“[b]ased on Mr. Nader confirming during the execution
of the search warrant that he had moved some images
to the Microsoft SkyDrive.” Id. at 104. Svajgl conceded
that a later forensic analysis showed that none of the
images that had been identified in the NCMEC tip
were located in the Nader home. Id. at 73. Detective
Svajgl testified in his deposition that he additionally
was concerned about minor children then in the care
of Mr. Nader. Filing No. 47, Ex. B, Svajgl Dep. at 100.

App. 16
Before he arrested Nader, Svajgl called Sarpy
County Deputy Attorney Miralles. Id. at 92. He explained to the County Attorney that he had verified the
computer that was used, the e-mail address that was
used, the person who uploaded and the method how
the images were uploaded. Id. at 93. He testified he
was asking the county attorney’s office “what their
thought was on the situation, if they agreed there was
probable cause or had some ideas of something else
we may need to look at.” Id. at 97. The Sarpy County
Attorney’s Office assigns one of its several Deputy
County Attorneys in its Criminal Division to be “on
call” to answer any calls from law enforcement officers
that commonly arise in the ordinary course of business,
such as questions regarding active investigations, enforcement of court orders, search warrants, bond hearings, court appearances, or similar matters. Filing
No. 40-3, Affidavit of Lee Polikov (“Polikov Aff.”) at 3.
Deputy County Attorney Miralles stated in an affidavit
that she did not “order” or effectuate the arrest of
Plaintiff Wadith Nader, she was not physically present
when the search warrant and arrest was executed
at the Nader residence, and she was not personally
involved in the subsequent criminal prosecution of
Wadith Nader by the Sarpy County Attorney’s Office.
Filing No. 40-1, Affidavit of Jennifer Miralles Hessig at
2-3; Filing No, 40-2, Incident Report at 2. Sarpy County
Attorney Polikov stated in an affidavit that he ensures
that his staff of Deputy County Attorneys are trained
by shadowing more experienced members of the prosecutorial staff and through continuing legal education
and other training. Filing No. 40-3, Polikov Aff. at 1-2.

App. 17
Detective Svajgl arrested Wadith Nader on March
17, 2015, at the Naders’ residence, and served him with
a Uniform Citation and Complaint for possession of
child pornography in violation of Neb. Rev. Stat. §28813.01. Filing Na 40-12, Svajgl Aff. at 12. Following the
arrest of Wadith Nader on March 17, 2015, Detective
Svajgl prepared an Affidavit in Support of a Warrantless Arrest and presented it to a Sarpy County Court
Judge. Id. at 12-13. The reviewing Judge signed a Probable Cause Detention Order on March 18, 2015, authorizing the detention of Wadith Nader. Filing No.
40-15, Svajgl Aff., Ex. C, Affidavit of Probable Cause for
Arrest. Formal criminal charges of seven counts of Possession of Child Pornography, a Class Ill Felony, were
filed on March 18, 2015 by Deputy Sarpy County Attorney Laurie Burgess. Filing No. 40-6, Perlman Aff. at
2; Filing No. 40-7, Perlman Aff., Ex. A, Criminal Complaint. Deputy County Attorney Ben Perlman was assigned to prosecute the case. Filing No. 40-3, Polikov
Aff. at 1-2. After Mr. Nader waived preliminary hearing, an information was filed in the District Court of
Sarpy County under Case No. CR15-184, alleging the
same seven counts of possession of child pornography.
Filing No. 40-6, Perlman Aff. at 2.
Mr. Nader was represented by attorney Thomas
Peterson from first appearance on March 19, 2015, until this matter was dismissed without prejudice on
October 7, 2015. Id. Nader’s attorney was unable to secure Nader’s release from custody until April 13, 2015,
at which time Nader posted bond and agreed to certain

App. 18
conditions of his release.3 Filing No. 40-18, Valentino
Aff., Ex. B, Nader Dep. at 53, 56-57.
The record shows the Sarpy County Attorney’s Office did not receive the complete forensics examination
from the Nebraska State Patrol criminal forensic laboratory until on or about September 1, 2015, at which
time it provided the CD relative to the examination to
defense counsel. Filing No. 40-6, Perlman Aff. at 2. A
partial examination of Nader’s computer hard drives
was performed by the Douglas County Sheriff ’s crime
lab and three images of child pornography were reported found, but Douglas County was unable to complete the rest of the examination and requested it be
completed by another agency. Id. Sometime prior to
October 7, 2015, Sarpy County was informed by lab examiner Shelby Mertins and her supervisor at the Nebraska State Patrol crime forensics lab that they would
not be able to testify that the possession of the child
porn images were “knowingly possessed” by Mr. Nader.
Id.; see Filing No. 408, Affidavit of Shelby Mertins at 3.
Deputy County Attorney Perlman dismissed the criminal charges against Wadith Nader on October 7, 2015,
3

Nader testified at his deposition that his bond was originally set at $200,000.00. Filing No. 4018, Nader Dep. at 57. He
stated that deputy County Attorney Perlman told his attorney
that Nader was regarded a flight risk. Id. He is a native of Colombia. Id. at 14. At Nader’s deposition, the parties alluded to some
sort of dispute about Money kept in a Russian box, hidden passports and potential travel to Russia as topics raised in connection
with bond hearings. Id. at 55-57. There is also evidence that, in
recorded conversations with his wife from jail, the Naders discussed Mr. Nader’s ethnicity as a reason for allegedly unfair
treatment. See Filing No. 40-19, Mrs. Nader Dep. at 85-86.

App. 19
based on his assessment that the evidence could support a defense of “accidental download.” Filing No. 40-6,
Perlman Aff. at 3. The record shows that Mrs. Nader’s
military career may have been hampered by her husband’s arrest. Id.
II.

Law
A. Standard of Review

At the summary judgment stage, this court must
viewing the evidence in the light most favorable to the
nonmoving party and draw all reasonable inferences
in favor of the nonmoving party. Mendoza v. United
States Immigration & Customs Enf ’t, 849 F.3d 408,
416 (8th Cir. 2017). A party is entitled to summary
judgment only if there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law. Fed, R. Civ. P. 56(a). “When a
defendant asserts qualified immunity at the summary
judgment stage, the plaintiff must produce evidence
sufficient to create a genuine issue of fact regarding
whether the defendant violated a clearly established
right.” Bishop v. Glazier, 723 F.3d 957, 961 (8th Cir.
2013).
B. Qualified Immunity
Courts conduct a two-part inquiry to determine
whether qualified immunity protects a government official from liability: 1) whether the facts taken in a
light most favorable to the non-moving party make out
a violation of a constitutional right; and (2) whether

App. 20
that right was clearly established at the time of the alleged violation. Hoyland v. McMenomy, 869 F.3d 644,
652 (8th Cir. 2017). The court has discretion in deciding
which part of the inquiry to address first. Id. “ ‘The determination of whether an officer is entitled to qualified immunity requires consideration of the “objective
legal reasonableness” of the officer’s conduct in light of
the information he possessed at the time of the alleged
violation.’ ” Id. (quoting Winters v. Adams, 254 F.3d 758,
766 (8th Cir. 2001).
“[I]in the light of pre-existing law,’ the unlawfulness of the officer’s conduct ‘must be apparent.’ ” Ziglar
v. Abbasi, 137 S. Ct. 1843, 1867 (2017) (quoting Anderson v. Creighton, 483 U.S. 635, 640 (1987). “Qualified
immunity protects ‘all but the plainly incompetent or
those who knowingly violate the law.’ ” Id. (quoting
Malley v. Briggs, 475 U.S. 335, 341 (1986)). “To determine whether a given officer falls into either of those
two categories, a court must ask whether it would have
been clear to a reasonable officer that the alleged conduct ‘was unlawful in the situation he confronted.’ ” Id.
(quoting Saucier v. Katz, 533 U.S. 194, 205 (2001). “If
so, then the defendant officer must have been either
incompetent or else a knowing violator of the law, and
thus not entitled to qualified immunity.” Id. “If not,
however—i.e., if a reasonable officer might not have
known for certain that the conduct was unlawful—
then the officer is immune from liability.” Id.
Also, “liability under § 1983 is personal.” White v.
Jackson, 865 F.3d 1064, 1080 (8th Cir. 2017); see Doran
v. Eckold, 409 F.3d 958, 965 (8th Cir. 2005) (en banc).

App. 21
“[V]icarious liability is inapplicable to § 1983 suits[.]”
Parrish v. Ball, 594 F.3d 993, 1001 (8th Cir. 2010).
“[E]ach Government official, his or her title notwithstanding, is only liable for his or her own misconduct.”
Id. (quoting Ashcroft v. Iqbal, 556 U.S. 662, 676 (2009)).
To prevail on a § 1983 claim, a plaintiff must show each
individual defendant’s personal involvement in the alleged violation. White, 865 F.3d at 1081; see Madeweli
v. Roberts, 909 F.2d 1203, 1208 (“Liability under § 1983
requires a causal link to, and direct responsibility for,
the deprivation of rights.”). “Thus, [t]he doctrine of
qualified immunity requires an individualized analysis of each officer’s alleged conduct.’ ” S.M. v. Krigbaum,
808 F.3d 335, 340 (8th Cir, 2015) (emphasis in original)
(quoting Walton v. Dawson, 752 F.3d 1109, 1125 (8th
Cir. 2014)).
It was clearly established at the time of the incident at issue that a warrantless arrest, unsupported
by probable cause, violates the Fourth Amendment.
Hoyland, 869 F.3d at 652. “if the complaint is that a
form of legal process resulted in pretrial detention unsupported by probable cause, then the right allegedly
infringed lies in the Fourth Amendment.” Manuel v.
City of Joliet, Ill., ___ U.S. ___, 137 S. Ct. 911, 919
(2017) (stating that if a plaintiff was initially arrested
without probable cause, he can bring a claim for wrongful arrest under the Fourth Amendment, as well as a
claim for wrongful detention—because any subsequent
time in custody is also unsupported by probable cause
and also constitutionally unreasonable.)

App. 22
“ ‘A warrantless arrest is consistent with the Fourth
Amendment if it is supported by probable cause, and
an officer is entitled to qualified immunity if there is
at least arguable probable cause.’ ” Hosea v. City of St.
Paul, 867 F.3d 949, 955 (8th Cir. 2017) (quoting Ehlers
v. City of Rapid City, 846 F.3d 1002, 1008-09 (8th Cir.
2017) (internal quotation marks omitted)). “Probable
cause exists when the totality of facts known at the
time of the arrest would justify a reasonable person in
believing that the individual has committed or is committing an offense.” Id. Probable cause exists when, in
light of the circumstances at the time of arrest, a law
enforcement officer has “trustworthy” information that
would cause a reasonable person to believe that the
suspect committed or was committing a crime. United
States v. Luke, 686 F.3d 600, 605 (8th Cir. 2012). Arguable probable cause “is a mistaken but objectively
reasonable belief the suspect committed a criminal offense.” Dowell v. Lincoln Cnty., 762 F.3d 770, 777 (8th
Cir. 2014); see also Borgman, 646 F.3d at 523.
A court considers the totality of the circumstances
faced by the officer at the time of arrest, giving the officer “substantial latitude in interpreting and drawing inferences from factual circumstances.” Royster v.
Nichols, 698 F.3d 681, 688 (8th Cir. 2012). “ ‘When an
officer is faced with conflicting information that cannot
be immediately resolved, he may have arguable probable cause to arrest a suspect.’ ” Hosea, 867 F.3d at 956
(quoting Borgman v. Kedley, 646 F.3d 518, 523 (8th Cir.
2011)). In considering information given, “an officer
need not conduct a ‘mini-trial’ before effectuating an

App. 23
arrest although he cannot avoid ‘minimal further investigation’ if it would have exonerated the suspect.”
Borgman, 646 F.3d at 523 (quoting Kuehl v. Burtis, 173
F.3d 646, 650 (8th Cir. 1999).
“Probable cause is a question of law that is determined at the moment the arrest is made, and any later
developed facts are irrelevant to the probable cause
analysis.” Hosea v. City of St. Paul, 867 F.3d 949, 955
(8th Cir. 2017) (quoting Gilmore v. City of Minneapolis,
837 F.3d 827, 833 (8th Cir. 2016)); see also Joseph v. Allen, 712 F.3d 1222, 1226 (8th Cir. 2013) (“The fact that
the person arrested is later found innocent is not material.”).
C. Supervisory Liability
“ ‘When a supervising official who had no direct
participation in an alleged constitutional violation is
sued for failure to train or supervise the offending actor, the supervisor is entitled to qualified immunity unless plaintiff proves that the supervisor (1) received
notice of a pattern of unconstitutional acts committed
by a subordinate, and (2) was deliberately indifferent
to or authorized those acts.’ ” Mendoza, 849 F.3d at 420
(quoting Krigbaum, 808 F.3d at 340). “This rigorous
standard requires proof that the supervisor had notice
of a pattern of conduct by the subordinate that violated
a clearly established constitutional right” and “allegations of generalized notice are not sufficient.” Krigbaum,
808 F.3d at 340. “When the issue is qualified immunity
from individual liability for failure to train or supervise,

App. 24
deliberate indifference is a subjective standard that
‘entails a level of culpability equal to the criminal law
definition of recklessness.” Id. at 341 (quoting B.A.B.,
Jr. v. Bd. of Educ. of St. Louis, 698 F.3d 1037, 1040 (8th
Cir. 2012), “To be deliberately indifferent, an ‘official
must both be aware of facts from which the inference
could be drawn that a substantial risk of [unconstitutional] harm exists, and he must also draw the inference.” Id. (quoting Farmer v. Brennan, 511 U.S. 825,
837 (1994)).
There must first be an obvious need for the training before a failure to have it will be considered a constitutional violation. Mendoza, 849 F.3d at 420. If there
is generalized training, lack of particularized training
that might have prevented the alleged violation does
not establish a constitutional violation. Id. Liability for
failure to supervise will not attach in section 1983 actions unless individual liability is first found on an underlying substantive claim. Schoettle v. Jefferson Cty.,
788 F.3d 855, 861-62 (8th Cir. 2015); see Moore v. City
of Desloge, 647 F.3d 841, 849 (8th Cir. 2011).
D. Municipal liability
“In Leatherman [v. Tarrant Cty. Narcotics Intelligence & Coordination Unit, 507 U.S. 163, 166 (1993)]
the Supreme Court made it ‘quite clear that, unlike
various government officials, municipalities do not enjoy immunity from suit—either absolute or qualified—
under § 1983.’ ” Sample v. City of Woodbury, 836 F.3d
913, 917 (8th Cir. 2016). A municipality may be liable

App. 25
under § 1983 “if the governmental body itself ‘subjects’
a person to a deprivation of rights or ‘causes’ a person ‘to be subjected’ to such deprivation.” Connick v.
Thompson, 563 U.S. 51, 60 (2011). Municipalities, however, “are responsible only for ‘their own illegal acts.’ ”
Id. (quoting Pembaur v. Cincinnati, 475 U.S. 469, 479
(1986)). A municipality cannot be held liable solely because of the acts of its employees, but “the municipality
may be held liable ‘when execution of a government’s
policy or custom . . . inflicts the injury.’ ” Los Angeles
County v. Humphries, 562 U.S. 29, 36 (2010) (quoting
Monell v. Dep’t of Soc. Servs. of City of New York, 436
U.S. at 658, 691, 694 (1978). A municipality cannot be
held liable under on a respondeat superior theory. Monell v. Dep’t of Soc. Servs. of City of New York, 436 U.S.
at 658, 692 (1978); see also Sample, 836 F.3d at 917 n.3
(holding that municipalities can only be liable under
section 1983 if municipal policy or custom caused the
unconstitutional injury and noting that “immunity
from suit and freedom from respondeat superior liability are separate doctrines”).
“Official municipal policy includes the decisions of
a government’s lawmakers, the acts of its policymaking officials, and practices so persistent and widespread as to practically have the force of law.” Connick,
563 U.S. at 61. “[O]nly where a failure to train reflects
a ‘deliberate’ or ‘conscious’ choice by a municipality—
a ‘policy’ as defined by our prior cases—can a city
be liable for such a failure under § 1983.” City of Canton v. Harris, 489 U.S. 378, 389 (1989). Municipal liability will not attach in section 1983 actions unless

App. 26
individual liability is first found on an underlying substantive claim. Schoettle, 788 F.3d at 861-62.
E. Conspiracy
To prove a 42 U.S.C. § 1983 conspiracy claim, a
plaintiff “must show: that the defendant[s] conspired
with others to deprive him of constitutional rights;
(2) that at least one of the alleged co-conspirators engaged in an overt act in furtherance of the conspiracy;
and (3) that the overt act injured the plaintiff.” White
v. McKinley, 519 F.3d 806, 814 (8th Cir. 2008). A plaintiff is required to prove “a deprivation of a constitutional right or privilege in order to prevail on a § 1983
civil conspiracy claim.” Id.
For a claim of conspiracy under Section 1983, the
plaintiff “need not show that each participant knew
‘the exact limits of the illegal plan . . . ,’ but the plaintiff
must show evidence sufficient to support the conclusion that the defendants reached an agreement to deprive the plaintiff of constitutionally guaranteed
rights.” White, 519 F.3d at 816 (quoting Larson by
Larson v. Miller, 76 F.3d 1446, 1458 (8th Cir. 1996)).
“Evidence of ‘an agreement to deprive [a] plaintiff of
constitutionally guaranteed rights’ typically is circumstantial.” Livers v. Schenck, 700 F.3d 340, 361 (8th Cir.
2012) (alteration in original) (quoting White, 519 F.3d
at 816), “ ‘The question of the existence of a conspiracy
to deprive the plaintiffs of their constitutional rights
should not be taken from the jury if there is a possibility the jury could infer from the circumstances a

App. 27
‘meeting of the minds’ or understanding among the
conspirators to achieve the conspiracy’s aims.’ ” White,
519 F.3d at 816 (quoting Larson by Larson, 76 F.3d at
1458).
F. Prosecutorial Immunity
Prosecutors enjoy absolute immunity in their review of and decisions to charge a violation of the law.
Sample, 836 F.3d at 916; see Imbler v. Pachtman, 424
U.S. 409, 420-27, 431 (1976). Absolute immunity protects prosecutors against claims arising from their initiation of a prosecution and presenting a criminal case
“insofar as that conduct is ‘intimately associated with
the judicial phase of the criminal process.’ ” Burns v.
Reed, 500 U.S. 478, 486 (1991) (quoting Imbler, 424 U.S.
at 430). Absolute immunity applies when a prosecutor
prepares to initiate a judicial proceeding, or appears in
court to present evidence in support of a search warrant application, but does not apply when a prosecutor
gives advice to police during a criminal investigation.
Van de Kamp v. Goldstein, 555 U.S. 335, 343 (2009); see
also Burns, 500 U.S. at 482 (involving a prosecutor advising law enforcement officers to proceed with hypnosis as an investigative technique and advising that
results of the hypnosis as providing probable cause to
arrest).
Acts undertaken by a prosecutor in preparing for
the initiation of judicial proceedings or for trial, and
which occur in the course of his role as an advocate
for the State—including “the professional evaluation

App. 28
of the evidence assembled by the police—are entitled
to the protections of absolute immunity.” Buckley v.
Fitzsimmons, 509 U.S. 259, 273 (1993) (noting the difference “between the advocate’s role in evaluating evidence and interviewing witnesses as he prepares for
trial, on the one hand, and the detective’s role in
searching for the clues and corroboration that might
give him probable cause to recommend that a suspect
be arrested, on the other hand.”); see also McGhee v.
Pottawattamie Cty., 547 F.3d 922, 929 (8th Cir. 2008)
(stating that “before the establishment of probable
cause to arrest, a prosecutor generally will not be entitled to absolute immunity”). “A determination of probable cause does not guarantee a prosecutor absolute
immunity from liability for all actions taken afterwards,” even after that determination, “a prosecutor
may engage in ‘police investigative work’ that is entitled to only qualified immunity.” Buckley, 509 U.S. at
274 n.5; see Brodnicki v. City of Omaha, 75 F.3d 1261,
1266 (8th Cir. 1996) (holding that a prosecutor is entitled to qualified immunity when he or she pursues actions in an investigatory capacity).4
4

In Buckley, the Supreme Court stated:
[I]t would be anomalous, to say the least, to grant prosecutors only qualified immunity when offering legal advice to police about an unarrested suspect, but then to
endow them with absolute immunity when conducting investigative work themselves in order to decide
whether a suspect may be arrested. That the prosecutors later called a grand jury to consider the evidence
this work produced does not retroactively transform
that work from the administrative into the prosecutorial. A prosecutor may not shield his investigative work

App. 29
In determining whether particular actions of government officials fit within the absolute or qualified
immunity standard, courts use a functional approach
that looks to the nature of the function performed, not
the identity of the actor who performed it. Buckley, 509
U.S. at 269. The official seeking absolute immunity
bears the burden of showing that it is justified by the
function in question. Burns, 500 U.S. at 479.
G. Malicious Prosecution—PSTCA
The PSTCA eliminates, in part, the traditional immunity of political subdivisions for the negligent acts
of their employees. Doe v. Omaha Pub. Sch. Dist., 727
N.W.2d 447, 453 (Neb. 2007). The Act, “which provides
that in suits brought pursuant to the PSTCA, the political subdivision shall be liable in the same manner
. . . as a private individual under like circumstances,’
sets forth a general waiver of sovereign immunity subject to certain limited exceptions stated in § 13-910.”
Wise v. Omaha Pub. Sch., 714 N.W.2d 19, 22 (Neb. 2006)
(quoting Neb. Rev. Stat. § 13-908). The exceptions set forth
in Neb. Rev. Stat. § 13-910 are affirmative sovereign
with the aegis of absolute immunity merely because,
after a suspect is eventually arrested, indicted, and tried,
that work may be retrospectively described as “preparation” for a possible trial; every prosecutor might then
shield himself from liability for any constitutional
wrong against innocent citizens by ensuring that they
go to trial. When the functions of prosecutors and detectives are the same, as they were here, the immunity
that protects them is also the same.
Buckley, 609 U.S. at 275-76.

App. 30
immunity defenses to claims brought pursuant to the
PSTCA. Neb. Rev. Stat. §§ 13-908, 13-910. One of those
exceptions is “[a]ny claim arising out of assault, battery, false arrest, [or] false imprisonment.” Neb. Rev.
Stat. § 13-910(7); see Policky v. City of Seward, 433
F. Supp. 2d 1013, 1027 (D. Neb. 2006). If a political subdivision proves that a plaintiff ’s claim comes within
statutory exception to the PSTCA, then the claim fails
based on sovereign immunity, and the political subdivision is not liable. Neb. Rev. Stat. § 13-910. Doe v.
Omaha Public School Dist., 727 N.W.2d 447, 454 (Neb.
2007). Under Nebraska law, the general rule is that
when a public employee has been found to be immune
from liability . . . such immunity extends to the political subdivision. Hatcher v. Bellevue Volunteer Fire
Dep’t, 628 N.W.2d 685, 695 (Neb. 2001) (involving the
discretionary function exception).
III. DISCUSSION
The court first finds that the Sarpy County defendants have either absolute or qualified immunity from
suit. The court is inclined to believe that Deputy
County Attorney Miralles’s conduct is entitled to absolute immunity. The record shows that Miralles did
nothing more than confirm to Detective Svajgl that the
evidence he amassed during his investigation and
search amounted to probable cause to arrest. Her function was essentially to conduct a professional evaluation of the evidence already assembled by the police.
She was not part of the investigation, nor did she
prepare any affidavits in connection with the search

App. 31
warrant or later, the arrest warrant. The evidence
shows that the detectives functioned as investigators
and Miralles and other members of the Sarpy County
Attorney’s Office functioned as prosecutors. The plaintiffs’ allegation that Miralles “ordered” Detective Svajgl
to arrest Mr. Nader is not supported by the record. Under the functional approach, the record shows that the
Sarpy County attorneys’ actions were performed in
connection with prosecutorial functions, and not in any
investigatory capacity.
To the extent that Miralles’s conduct could be
construed as outside the ambit of conduct that is ‘intimately associated with the judicial phase of the criminal process,” that is—not conduct that would occur in
the course of her role as an advocate for the State—she
would nonetheless be entitled to qualified immunity
for that conduct. Viewing the evidence in the light most
favorable to the Naders, the court is unable to draw
any reasonable inference of liability for a constitutional wrong from Miralles’s conduct. The plaintiffs
have not shown that either confirming Detective Svajgl’s
assessment of the evidence or advising him that the
evidence was sufficient to establish probable cause
clearly violated any constitutional right. The court’s
finding, infra, that there was probable cause to arrest
Mr. Nader forecloses the plaintiffs’ argument in this
regard.
Similarly, because the plaintiffs’ state-law claim
of malicious prosecution or false arrest is asserted
against political subdivisions of the State of Nebraska
and their employees in the course and scope of their

App. 32
duties, the plaintiffs’ claim is governed by the PSTCA.
It is clear from the record that the claim falls within
the exception to the general waiver of tort liability provided under Neb. Rev. Stat. § 13-908. Thus, Neb. Rev.
Stat. § 13-910(7) affords the defendants a complete defense to the plaintiffs’ state law claim. Therefore, the
defendants are entitled to summary judgment in their
favor on the plaintiffs’ state-law claims.
With respect to the plaintiffs’ § 1983 claims against
law enforcement officers Iversen and Svajgl, the question before the court is whether it was objectively reasonable for the officers to believe, under the totality of
the circumstances, that Nader possessed child pornography. The court finds that it was. The information that
Detective Svajgl possessed at the time of the arrest
amounted to arguable probable cause for arrest. Notably, the plaintiffs do not contest the validity of the
search warrant, nor do they allege that Nader was not
promptly brought before a judge and charged after the
arrest. The court’s review of the evidence shows that
Mr. Nader was not subjected to an unreasonable arrest
or detention.
Though it is unfortunate that Mr. Nader was arrested on charges that were ultimately dismissed, that
does not mean there was not probable cause to arrest
him in the first place. The Naders have shown nothing
more than that the officers were relatively inexperienced in child pornography investigations. Although
the search was Deputy Svajgl’s first search as lead investigator and the computer analysis was Deputy
Iversen’s first experience using certain technology to

App. 33
look for digital evidence, their actions do not show
“plain incompetence” or any knowing violation of the
law. The officers’ conduct in the search and arrest are
the sort of reasonable, even if mistaken, judgments
that are insulated from liability under the qualified
immunity doctrine.
Although the plaintiff was arrested and detained
on a charge that the government would ultimately be
unable to prove, the officers were in possession of evidence at the time of the arrest that provided arguable
probable cause to arrest Nader. There is no dispute
that there was probable cause to obtain the search
warrant. That information, together with the evidence
supporting the warrant, was sufficient to lead a reasonable person to conclude that a crime was committed.
Significantly, a judge reviewed and approved Detective Svajgl’s affidavit in support of the arrest and
found probable cause to detain Mr. Nader. The information and knowledge conveyed to the Judge was in
Detective Svajgl’s possession at the time of the arrest.
In his affidavit, Detective Svajgl described the cybertip,
relayed Nader’s statements at the time of the search,
and reported that one image had been flagged as possible child pornography. Those facts are sufficient to
justify a reasonable person’s belief that Nader had
committed or was committing the crime of possessing
child pornography on his computer. The officers were
in possession of knowledge from Microsoft that child
pornography had been downloaded onto Nader’s computer. They verified the IP address and traced the

App. 34
account to Nader. There are no allegations that anyone
else used the computer. Further, there is no evidence
to suggest that the cybertip from Microsoft was untrustworthy. Nor have the plaintiffs shown that the officers’ reliance on the preliminary computer scan was
unreasonable.
The officer was not obliged to believe Nader’s explanation that his computer had been hacked or his
suggestion of an accidental download. It stands to reason that every suspected possessor of child pornography would make such an assertion. In the context of
investigation of digital technology, the officers’ conduct was not unusual. A thorough forensic examination takes time. Notably, Nader does not challenge the
basis for the search warrant. An officer faced with the
tip from Microsoft, the officers’ prior observation of the
images at issue and verification of a connection to
Nader’s email address and IP address, evidence obtained in the search as the result of a valid search warrant—including software scans showing keyword and
hashtag matches to possible child pornography, and
Nader’s statements to Detective Svajgl could reasonably conclude probable cause existed to arrest Nader for
possession of child pornography. Contra United States
v. Garden, No. 4:14CR3072, 2015 WL 6039377, at *4 (D.
Neb. Oct. 15, 2015) (finding probable cause lacking, in
a criminal prosecution, to seize a defendant from his
place of employment, detain and interrogate him in a
squad car while his residence was searched, and later
transport him to the residence when the only evidence
of a connection to a cybertip was an IP address (which

App. 35
although registered to the defendant, could have been
used by other individuals at the residence—or even in
the neighborhood, if a wireless router was connected to
the modem) and the cybertip involved a fictitious user
and email exchanges that were not known at the
time to contain images of child pornography). See, e.g.,
United States v. Coulter, No. 6:12CR3095-01, 2014 WL
229199, at *6 (WD. Mo. Jan. 21, 2014).
The fact that officers were later advised, after a
thorough forensic examination of the computer files,
that it would be difficult to prove the images were
knowingly downloaded is not germane to the inquiry
at issue. Nader was not charged, presumably because
law enforcement officers believed they could not prove
the element of knowing possession. Whether the government could prove the elements of its case beyond a
reasonable doubt is a separate inquiry from whether
there was arguable probable cause to arrest. There has
been no showing, such as proof of widespread inaccuracies, mistaken identification, or other deficiencies,
that reliance on tips from technology companies is
somehow unreasonable. Though it may have been preferable to conduct the thorough forensic examination in
a more timely manner, the delay does not make the officers “plainly incompetent” or in knowing violation of
the law.
With respect to the plaintiffs’ conspiracy claim,
there is no evidence, circumstantial or otherwise, from
which the court can infer a conspiracy or any discriminatory animus. The plaintiffs have presented no
evidence of the necessary meeting of the minds or

App. 36
concerted action from which to infer a conspiracy, nor
has he presented evidence of overt acts in furtherance
of the conspiracy.
Further, the evidence does not provide a basis for
any imposition of either supervisory or municipal liability on Sarpy County, Papillion, County Attorney
Polikov, or Detective Lyons. The evidence does not establish any failure to properly train the officers. The
evidence shows that Detective Svajgl sought the aid of
La Vista Detective Iversen, who, though relatively inexperienced in the procedures, had been trained in
computer investigation. There has been no showing
that his training was somehow deficient or that there
was a need for such training in the Papillion Police Department, since Papillion officers were part of a joint
task force.
Accordingly, the court finds the defendants’ motions for summary judgment should be sustained.
IT IS HEREBY ORDERED:
1. The motion for summary judgment filed by defendants City of Papillion, Nebraska, Bryan Svajgl,
Scott Lyons, and Benjamin Iversen (Filing No. 49) is
granted.
2. The motion for summary judgment filed by defendants County of Sarpy, L. Kenneth Polikov, and Jennifer Miralles (Filing No. 39) is granted.
3.

A judgment of dismissal will issue this date.

App. 37
Dated this 29th day of January, 2018.
BY THE COURT:
s/ Joseph F. Bataillon
Senior United States
District Judge

App. 38
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-1402
Wadith Stockinger Nader and Stacey Nichole Nader
Appellants
v.
City of Papillion, et al.
Appellees
-----------------------------------------------------------------------

Appeal from U.S. District Court for
the District of Nebraska - Omaha
(8:17-cv-00083-M3)
-----------------------------------------------------------------------

ORDER
The petition for rehearing by the panel is denied.
April 15, 2019
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

App. 39
U.S. CONST. AMEND. IV
Unreasonable searches and seizures.
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause, supported by Oath or affirmation, and particularly describing the place to be searched, and the persons or
things to be seized.

App. 40
42 U.S.C.A. § 1983.
Civil action for deprivation of rights
Effective: October 19, 1996
Every person who, under color of any statute, ordinance, regulation, custom, or usage, of any State or Territory or the District of Columbia, subjects, or causes
to be subjected, any citizen of the United States or
other person within the jurisdiction thereof to the deprivation of any rights, privileges, or immunities secured by the Constitution and laws, shall be liable to
the party injured in an action at law, suit in equity, or
other proper proceeding for redress, except that in any
action brought against a judicial officer for an act or
omission taken in such officer’s judicial capacity, injunctive relief shall not be granted unless a declaratory
decree was violated or declaratory relief was unavailable. For the purposes of this section, any Act of Congress applicable exclusively to the District of Columbia
shall be considered to be a statute of the District of Columbia.

